                       STATE OF SOUTH CAROLINA

                EVALUATION OF GRANT OBLIGATIONS
                       AND EXPENDITURES

               WORKFORCE INVESTMENT ACT GRANTS
                AND JOB TRAINING PARTNERSHIP ACT
                        TRANSITION FUNDS


               INDEPENDENT ACCOUNTANT’S REPORT
              ON APPLYING AGREED-UPON PROCEDURES

                 JULY 1, 2000 THROUGH MARCH 31, 2002




This agreed-upon procedures report was prepared by Harper, Rains, Stokes and Knight, PA,
under contract to the U.S. Department of Labor, Office of the Inspector General, and, by
acceptance, it becomes a report of the Office of Inspector General.


                         _____________________________________
                         Assistant Inspector General for Audit
                         U. S. Department of Labor




                                                Report No: 04-03-005-03-390
                                                Date Issued: March 28, 2003

                    HARPER, RAINS, STOKES, & KNIGHT, P.A.
                                             TABLE OF CONTENTS


Acronyms ........................................................................................................................................iii

Independent Accountant’s Report on Applying Agreed-Upon Procedures.....................................1

Summary of Results.........................................................................................................................2

Background, Scope and Methodology ............................................................................................3

           Background ..........................................................................................................................3
           Scope and Methodology.......................................................................................................4

Procedures and Findings ..................................................................................................................5

Exhibit I – Financial Status Report, Local Youth Program Activities

Exhibit II – Financial Status Report, Local Adult Program Activities

Exhibit III – Financial Status Report, Local Dislocated Worker Program Activities

Exhibit IV – State of South Carolina’s Response




                                                                   ii
                        ACRONYMS


CFR     Code of Federal Regulations

DOL     U.S. Department of Labor


ETA     Employme nt and Training Administration


FIFO    First-In-First-Out

FSR     Financial Status Report


FY      Fiscal Year


JTPA    Job Training Partnership Act

MFR     Monthly Financial Status Report


OGCM    Office of Grants and Contract Management


OIG     Office of the Inspector General

PY      Program Year


SCESC   South Carolina Employment Security Commission


WIA     Workforce Investment Act




                             iii
                               SUMMARY OF RESULTS


We identified and summarized the WIA funds obligated and expended as of December
31, 2001, based on records available at both the State of South Carolina and selected
Local Boards. In the State of South Carolina, we determined that the obligation
information reported by the State as of December 31, 2001 included the actual
obligations at the State level. However, the portion of obligations attributable to Local
Boards reported on the FSRs included the amounts passed through to the Local Boards
rather than the amounts which they had actually obligated. We found that the accounting
records supported the amounts reported as obligations and expenditures on quarterly
financial reports. There were procedures established for recording transactions on the
accrual basis of accounting in accordance with Federal regulations, and the amounts of
obligations and expenditures reported to the State by the Local Boards were substantiated
by contracts and monthly reports submitted from subcontractors.

Expenditures reported at December 31, 2001, reflect that $37.7 million of the $84.9
million awarded had been expended by the State and Local Boards, leaving $47.2 million
or 55.6 percent unexpended. At this rate of spending, it would take 23 months to spend
the remaining funds, during which time the State would receive additional WIA
allocations.

The State and Local Boards employ First-In-First-Out (FIFO) methodology in tracking
expenditures rather than matching the Fiscal Year (FY) or Program Year (PY)
expenditures with the award applicable to the period. As a result, there is no means by
which to assess a particular period’s performance due to this dissociation of its
expenditures with its funding. Because funding at the State and Local Board levels is
“perishable”, meaning that it must be spent within a requisite time period, there may be
an impetus to spend the oldest funds first to ensure expenditure before expiration of the
appropriation.

State of South Carolina’s Response

The South Carolina Employment Security Commission provided a written response to
our draft report, dated March 13, 2003, which is included in its entirety at Exhibit IV.
The State agreed with the information presented in the report.




                                             2
                  BACKGROUND, SCOPE AND METHODOLOGY


Background

WIA, enacted in 1998, was designed to reform prior Federal job training programs and
create a new comprehensive workforce investment system. This intends to provide
customer-focused services, assist Americans in accessing tools needed to manage their
careers through information and services, and assist U.S. companies in finding skilled
workers. The Act superseded JTPA and amended the Wagner-Peyser Act.

Initial grants for the WIA program were awarded by DOL, ETA, beginning in 2000.
However, unexpended funds from the PY 1998 and PY 1999 JTPA State grants were
authorized for transition into the WIA program. Generally, the states are required to pass
through approximately 85 percent of the awards received from DOL to Local Boards
(subrecipients). States have the original program year plus two additional program years
to spend the grant funds. However, funds allocated by a State to a Local Board for any
program year are available for expenditure only during that program year and the
succeeding program year. Funds that are not expended by a Local Board in this two-year
period must be returned to the State.

States are required to report WIA activities on quarterly Financial Status Reports (FSRs).
Accrued expenditures and obligations are key items reported on the FSRs. Accrued
expenditures are reported when a valid liability has been created through delivery of
goods or services, regardless of when cash payment is made. For example, salaries
earned by employees, but not yet paid, should be recorded as accrued expenditures.
Obligations are reported when certain events occur which will require payment by the
States or Local Boards in the same or a future period. Obligations are defined in the WIA
regulation as follows:

       . . . . the amounts of orders placed, contracts and subgrants awarded,
       goods and services received, and similar transactions during a funding
       period that will require payment by the recipient or subrecipient during
       the same or a future period [20 CFR 660.300].

According to ETA, Office of Grants and Contract Management (OGCM), states have
been instructed to report obligations for Statewide Activities and Rapid Response only
for those amounts of funding for which a legal liability exists at the State level.
Likewise, the State has been instructed to report obligations for Local Board activities
(Local Administration, Youth, Adult and Dislocated Workers) only for those amounts of
funding for which a legal obligation exists at the Local Board level. ETA did not clearly
specify whether Local Board obligations or the State’s pass-through awards should be
included on these reports.




                                            3
Scope and Methodology

Our agreed-upon procedures encompass WIA funds awarded to the State of South
Carolina for PY 2000, FY 2001, PY 2001and FY 2002, as well as PY 1998 and 1999
JTPA funds transitioned into the WIA program. Procedures were applied to grant
activities reported by the State and three Local Boards (Lower Savannah Council of
Government, Pee Dee Workforce Investment Board, and Midland Local Board) from
July 1, 2000 through December 31, 2001.

In general, our procedures were designed to summarize the State of South Carolina’s
WIA financial activity (obligations and expenditures) through December 31 2001, to
determine if the amounts reported to ETA agreed with the supporting accounting records,
and to measure the extent to which the State and Local Boards have obligated and
expended WIA funds. In some instances we obtained information subsequently reported
by the State and Local Boards for the March 31, 2002 reporting period.




                                           4
                        PROCEDURES AND FINDINGS


1.   Interview the appropriate State personnel regarding how information is
     accumulated from the Local Boards and about the preparation of the FSR
     269s. Using this information, verify exactly what obligations were reported
     on the December 31, 2001 WIA Quarterly Financial Status Reports.
     Determine if the amounts passed through to the Local Boards are reported as
     obligations on the FSRs. Based on the information obtained, determine if the
     State is reporting obligations as described at 20 CFR 660.300 to include
     subgrants awarded to subrecipients.

     As of December 31, 2001, the amounts reported as “obligations” by the State of
     South Carolina on the FSRs represent the amounts which they had allocated to the
     Local Boards for operation of the Adult, Youth and Dislocated Worker programs
     as well as amounts allocated for administrative expenses at the Local Board level.
     In addition, the actual obligation of funds maintained at the State level was
     included in the amounts reported as Total Federal Obligations. The Local Boards
     report to the State using FSRs that are comparable to the FSR (Form 269s) used
     by SCESC to report obligations to the DOL. The information reported on the
     Local Board’s FSR is reported monthly and is required to be submitted to the
     State by the 25th day of each month following the month being reported.

     According to representatives of SCESC, the amounts passed through to the Local
     Boards are considered to be “obligated” at the time the funds are allocated among
     the Local Boards. Reporting of funds as “obligated” in this manner does not take
     into account whether the funding passed to the Local Boards has been obligated at
     the Local Board level for expenditures for which legal liabilities exist. We looked
     at written reporting instructions issued by ETA. The instructions do not clearly
     specify whether Local Board obligations or the State’s pass-through awards
     should be included on these reports.

     Based on our review of supporting schedules and detail reports provided as
     support for the FSRs, we determined that obligations reported on the FSRs were
     inclusive of amounts awarded as subgrants to subrecipients.




                                          5
2.   Determine how the State tracks the various funding periods for both State
     activities and Local Board activities, and if data is accounted for in a manner
     that will allow expenditures to be matche d against the appropriate
     obligation.

     Based on discussions with representatives of SCESC as well as examination of
     financial records at the State and Local Board levels, we determined that SCESC
     does not match expenditures with the appropriate fiscal period’s funding. Rather,
     expenditures of a given period are first matched against the earliest available
     funding. The expenditure information reported to the State by the Local Boards is
     segregated by funding period; however, the amounts of expenditures and
     obligations reported on the FSRs to ETA are segregated according to which
     period’s funding is being utilized rather than which period the expenditures are
     incurred. As a result, there is no means by which to assess a particular period’s
     performance due to the dissociation of its expenditures with its funding.

3.   Determine if the expenditure information (Outlays on the December 31, 2001
     FSRs) was reported on the accrual basis of accounting as required at 29 CFR
     97 and the WIA reporting instructions at 20 CFR 667.300 (c) (3).

     As discussed in greater detail at item 8 of this report, reporting between the Local
     Board level and the State level consists of a “Monthly Financial Status Report”
     (MFR) that is in the same general format as the Federal FSR. These monthly
     reports detail, among other things, the amounts of accrued expenditures incurred
     to date by the Local Boards. These amounts then roll up into the Federal FSR as
     “Outlays”. We reviewed the reporting instructions provided by SCESC to the
     Local Boards and determined that the amounts identified as “accrued
     expenditures” are, by specific directive of the State to the Local Boards, to be
     inclusive of expenditures that have been incurred but for which payment has not
     been made by the Local Boards. This manner of reporting is consistent with the
     accrual basis of accounting as required by 29 CFR 97 and the reporting
     instructions at 20 CFR 667.300. We made specific inquiries of Local Board
     representatives regarding the inclusion of accruals in the amounts reported up to
     the States as expenditures. Each of the three Local Boards’ representatives stated
     that amounts reported as expenditures up to the State were, in fact, inclusive of
     accruals as is required by 29 CFR 97 and 20 CFR 667.300.




                                           6
4.   Dete rmine what information is required to be reported by the Local Boards
     to the State, including the content, format, frequency and any written
     instructions issued by the State. Obtain copies of reports submitted by the
     Local Boards and copies of written instructions.

     Our review of the Internal Financial Reporting Procedures guidelines established
     by SCESC and distributed to the Local Boards and discussions with
     representatives of SCESC, indicated that the Local Boards are required to report
     specific financial data to the State on a monthly basis. This reporting is in the
     form of a MFR submitted for each month of the fund availability period. We
     reviewed copies of the MFRs for the quarter ending December 31, 2001. The
     information in the reports we examined included the total Federal funds available,
     the accrued expenditures (in accordance with 29 CFR 97 and 20 CFR 667.300),
     the funds obligated, and, where applicable, any program income or stand- in cost.

5.   Obtain or prepare from documents supporting the FSR 269s, a summary of
     the MFRs from the Local Boards and analyze this information to select the
     Local Boards to visit.

     We obtained a report entitled “South Carolina WIA Local Area Expenditures”
     which detailed, by funding stream, the total amounts of Allocations and
     Expenditures. This report also expressed the amounts of Obligations and
     Expenditures as a percentage of the total funding allocated. Utilizing this report,
     we made a judgmental selection of three Local Board offices in which to conduct
     fieldwork. The Local Boards selected for site visits were the Lower Savannah
     Council of Government, the Pee Dee Workforce Investment Board and the
     Midlands Local Board offices.

6.   Compare the information compiled at ETA to the reports prepared by the
     States and explain any differences determined.

     We examined the FSR 269s reported by SCESC to the DOL, and compared it to
     the corresponding data compiled at ETA. In all instances, the information per the
     269s agreed to the information compiled at ETA. Key elements of the 269 data
     were extracted from the reports, including Total Federal Funds Authorized,
     Obligations, Outlays (accrued expenditures), and the Unobligated Balance of
     Federal Funds for each funding stream, for each PY and FY. This extracted data
     was then used to perform the analytical procedures as described at item 7 of this
     report.




                                          7
7.   Perform an analytical review of the information obtained to develop trend
     information and investigate any unusual relationships noted.

     Total Federal Funds Authorized

     The table below shows the total WIA funds awarded by the DOL to the State of
     South Carolina since inception of the WIA program:

      Funding Beginning of           Expiration of        Total WIA Funds
      Period  Spending Period        Spending Period      Awarded
      PY 1998 JTPA transition        June 30, 2001        $ 1,423,152

      PY 1999 JTPA transition        June 30, 2002        $ 11,302,703

      PY 2000 July 1, 2000           June 30, 2003        $ 18,242,680

      FY 2001 October 1, 2000        June 30, 2003        $ 15,239,434

      PY 2001 July 1, 2001           June 30, 2004        $ 22,095,747

      FY 2002 October 1, 2001        June 30, 2004        $ 17,474,399

      Less:      Rescission of PY 2001 funds              ($     888,239)

                 Total Awards                             $ 84,889,876

     WIA funds are awarded on a PY basis from July 1 to June 30, except for Youth
     grants which are available in the April preceding the start of the PY. However, a
     portion of PY 2000 and 2001 funding, denoted as “FY” above, was not available
     until October 1 of each respective PY.




                                         8
7. (Continued)

      WIA Funds Obligated

      The data presented below reflect the total WIA funds reported to ETA as
      obligated by the State as of the quarter ended December 31, 2001.

                                                      Total WIA
                                     Total Funds         Funds        Amount           Percent of
                                       Awarded         Obligated    Unobligated         Funding
            Funding Period           (in millions)   ( in millions) (in millions)     Unobligated
               PY 1998                   $ 1.4          $    1.4       $ 0.0             0.0 %

                 PY 1999                $ 11.3          $   10.5         $   0.8          7.1 %

                 PY 2000                $ 18.3          $   18.0         $   0.3          1.6 %

                 FY 2001                $ 15.2          $   13.5         $   1.7          11.2 %

                 PY 2001                $ 22.1          $   20.0         $   2.1          9.5 %

                 FY 2002                $ 17.5          $   13.4         $   4.1          23.4 %

       Less: PY 2001 Rescission        ($ 0.9)              N/A         ($ 0.9)           N/A

       Total                            $ 84.9          $   76.8         $   8.1              9.5 %

      As discussed further at item 1 of this report, in addition to obligations made at the
      State level, South Carolina reports funds to be “obligated” upon their allocation of
      the funds to the Local Boards. Of the total $84.9 million of funding available,
      $8.1 million (9.5 percent) remained unobligated as of December 31, 2001.



Note: Information in the above table was obtained from the quarterly Financial
Status Reports prepared by SCESC and summarized. Additionally, a portion of PY
2001 funding was rescinded as noted above. In some instances, the individual
amounts in the above columns do not sum to the amount presented as the total due
to rounding differences.




                                            9
 7. (Continued)

 WIA Funds Obligated – Continued

 As discussed further in item 1, the obligation information reported by the State as
 of December 31, 2001, included the actual obligations at the State level.
 However, the portion of obligations attributable to Local Boards reported on the
 FSRs included the amounts passed through to the Local Boards rather than the
 amounts which they had actually obligated. In response to a request by DOL-
 OIG, we obtained information about the amounts qualifying under the OGCM
 definition of obligations which includes only those amounts for which a legal
 liability exists. This information was obtained for the quarter ended March 31,
 2002 and is summarized below.

                                               Total WIA
                             Total Funds          Funds            Amount          Percent of
                               Awarded          Obligated        Unobligated        Funding
    Funding Period           (in millions)    ( in millions)     (in millions)    Unobligated
       PY 1998                  $ 1.4            $    1.4           $ 0.0            0.0 %

        PY 1999                 $ 11.3           $   11.3           $   0.0            0.0 %

        PY 2000                 $ 18.3           $   18.0           $   0.3            1.6 %

        FY 2001                 $ 15.2           $   14.7           $   0.5            3.3 %

        PY 2001                 $ 22.1           $   19.0           $   3.1            14.0 %

        FY 2002                 $ 17.5           $   12.0           $   5.5            31.4 %

Less: PY 2001 Rescission      ($ 0.9)                N/A           ($ 0.9)              N/A

Total                           $ 84.9           $ 76.4             $ 8.5             10.0 %
 Per the additional information provided by the State of South Carolina, of the total
 $84.9 million of funding available, $8.5 million (10.0 percent) remained
 unobligated as of March 31, 2002. The remaining $76.4 million (90.0 percent)
 was represented by the State to have actually been obligated at the State and
 Local Board levels, representing a difference of $.4 million from what was
 reported by SCESC as obligations as of December 31, 2001.

 Note: Information in the above table was obtained from the quarterly
 Financial Status Reports prepared by SCESC and summarized.
 Additionally, a portion of PY 2001 funding was rescinded as noted above. In
 some instances, the individual amounts in the above columns do not sum to
 the amount presented as the total due to rounding differences.



                                     10
7. (Continued)


      Total Federal Outlays (Accrued Expenditures)

      The following summary reflects the total WIA expenditures reported by the State
      of South Carolina through December 31, 2001. These amounts are recorded in
      DOL’s general ledger.


                              Total Funds            Total             Amount             % of
                               Awarded           Expenditures        Unexpended         Funding
Funding Period                (in millions)      (in millions)       (in millions)     Unexpended
       PY 1998                   $ 1.4              $ 1.4               $ 0.0             0.00%

        PY 1999                  $ 11.3               $ 9.1              $ 2.3               20.4%

        PY 2000                  $ 18.3               $ 15.0             $ 3.2               17.5%

        FY 2001                  $ 15.2               $ 9.0              $ 6.2               40.8%

        PY 2001                  $ 22.1               $ 3.1              $ 19.0              86.0%

        FY 2002                   $ 17.5              $ 0.1              $ 17.4              99.4%
Less: PY 2001 Rescission         ($ 0.9)                N/A             ($ 0.9)               N/A
Total                             $ 84.9              $ 37.7             $ 47.2              55.6%

      Of the $84.9 million WIA funds awarded to the State of South Carolina, the State
      spent $37.7 million (44.4 percent) of the total funds awarded, leaving a significant
      portion of their funding, $47.2 million (55.6 percent) unexpended as of December
      31, 2001. The PY 2001 and FY 2002 funding years reflect that a significant
      percentage of the funds remained unexpended as of December 31, 2001, despite
      several months having passed since the funds were awarded.


Note: Information in the above table was obtaine d from the quarterly Financial
Status Reports prepared by SCESC and summarized. Additionally, a portion of PY
2001 funding was rescinded as noted above. In some instances, the individual
amounts in the above columns do not sum to the amount presented as the total due
to rounding differences.




                                           11
7. (Continued)

      Expenditure Analysis by Funding Stream

      The following provides a summary of the unexpended funding by program
      component:

                                        Amount            Amount        Percent of
                                        Awarded         Unexpended        Funding
          Program Component           (in millions)     (in millions)   Unexpended

       Local Board Activities:
       Adults                           $        21.6     $   11.2        51.9%
       Dislocated Worker                $        13.3     $    6.2        46.6%
       Local Admin                      $         6.4     $    3.7        57.8%
       Youth                            $        23.1     $   11.7        50.6%
       Total Local Board
       Activities                       $        64.4     $   32.8        50.2%

       State Activities:
       State-wide Activities            $        15.9     $   11.7        73.6%
       State-wide Rapid Response        $         5.4     $    3.6        66.7%
       Total State Activities           $        21.3     $   15.3        74.6%

       Less: PY 2001 Rescission        ($         .9)    ($    .9)         N/A

       Total Funding                    $        84.9     $   47.2        55.6%

      The expenditure data submitted by the State through December 31, 2001,
      indicates the majority of WIA funds at both the State and Local Board levels were
      not spent as of that date (74.6 percent and 50.2 percent, respectively).


Note: Information in the above table was obtained from the quarterly Financial
Status Reports prepared by SCESC and summarized. Additionally, a portion of PY
2001 funding was rescinded as noted above. In some instances, the individual
amounts in the above columns do not sum to the amount presented as the total due
to rounding differences.




                                            12
8.   Interview the appropriate Local Board personnel regarding how information
     is accumulated and about the preparation of the Local Board reports to the
     State. Inquire as to the source of obligation, cost and/or payment
     information reported to the State by the Local Board, and determine if the
     information reported agrees with the corresponding source accounting
     records.

     Through discussions with Local Board personnel along with their completion of a
     questionnaire drafted by us, we determined that obligation and expenditure
     information, as well as the funding availability by period are reported by the
     Local Boards to the State using MFRs. We obtained copies of these reports at the
     State level as well as the Local Board level during our visits to sites. The
     information on the MFRs shows the Federal fund allocation for each PY and FY
     in addition to the expenditures, refunds and rebates, the amounts of the awards
     designated as “obligated” by the Local Boards, in addition to any resulting
     amount of program income or stand- in cost. In tandem with the MFRs, we
     reviewed the source accounting records at the three Local Boards that we visited
     in order to determine if they agreed to the information reported to the State. In all
     instances, the Local Boards provided us with documentation supporting the
     amounts reported as obligations and expenditures.

9.   Determine ho w the Local Board tracks the various funding periods and if
     data is reported and accounted for in a manner which will allow
     expenditures to be matched against the appropriate obligation or
     subcontract agreement.

     The Local Boards employ FIFO methodology in associating period expenditures
     with funding sources. This methodology does not allow for matching of a
     particular period’s expenditures and obligations with the funding allotted to that
     period. As such, expenditures and obligations reported by the Local Board are
     not matched with the funding applicable to the period in which they are incurred,
     rather they are first matched against prior period remaining funds until these funds
     have been exhausted and then matched against subsequent periods’ funding.

     For instance, any amount of PY 2000 funding that remained after PY 2000 had
     lapsed would be used to satisfy a subsequent period’s expenditures until all of PY
     2000 funding was exhausted. Subsequently, FY 2001 funding would have been
     utilized to satisfy the period’s expenditures. Matching a period’s expenditures
     against prior period funding in this manner dissociates the funding allotted to a
     specific period from the performance objectives of that period.




                                          13
10.   Determine how the Local Board defines an obligation and the point at which
      funds are considered to be obligated. Determine if the Local Board
      definition includes only anticipated expenditures to meet bona fide needs of
      the funding program year and for which a legal liability exists.

      Of the three Local Boards visited, the consensus among the Local Board
      representatives was that the “obligation” of funds coincides with the decision by
      the Local area board members to award funding to a particular entity/
      subcontractor to perform services under WIA. The awarding of funding takes
      place in anticipation of making payments to subcontractors in order to meet bona
      fide needs of the WIA program. The awarding of funding also results in the
      signing of a contract between the Local Board and a subcontractor, which
      represents a legal liability. This definition, thus, includes only anticipated
      expenditures to meet bona fide needs for which a legal liability exists. However,
      as mentioned at item number 9 of this report, there is no matching of the funding
      year and program year due to the State and Local Boards’ use of FIFO
      methodology.




                                         14
                                                                        EXHIBIT I

                    FINANCIAL STATUS REPORT
                 LOCAL YOUTH PROGRAM ACTIVITIES




Following this title page is the WIA financial status report used to record local
youth program activities




                                     15
16
                                                                       EXHIBIT II

                     FINANCIAL STATUS REPORT
                  LOCAL ADULT PROGRAM ACTIVITIES




Following this title page is the WIA financial status report used to record local
adult program activities.




                                     17
18
                                                                      EXHIBIT III

                 FINANCIAL STATUS REPORT
       LOCAL DISLOCATED WORKER PROGRAM ACTIVITIES




Following this title page is the WIA financial status report used to record local
dislocated worker program activities.




                                     19
20
                                                                     EXHIBIT IV

                     THE COMPLETE TEXT OF
             SOUTH CAROLINA’S REPONSE TO THE DRAFT
                AGREED-UPON PROCEDURES REPORT




Following this title page is the complete text of South Carolina’s response to our
agreed-upon procedures report, issued to them on February 10, 2003.




                                    21
22
